RECIPIENT

NO. OF COPIES

Jeffrey A. Lamken
Lucas M. Walker
MoloLamken LLP
600 New Hampshire Ave. NW
Suite 500
Washington, DC 20037
(202) 556-2000
jlamken@mololamken.com
lwalker@mololamken.com

3 paper copies of petition
3 paper copies of appendix
3 paper copies of supplemental appendix

Counsel for Respondent
Packet Intelligence LLC
Leonid Grinberg
MoloLamken LLP
430 Park Ave.
New York, NY 10022
(212) 607-8160
lgrinberg@mololamken.com

No paper copies
PDFs will be served by
email

Counsel for Respondent
Packet Intelligence LLC
Robert P. Greenspoon
Flachsbart & Greenspoon, LLC
333 N. Michigan Ave., 27th Floor
Chicago, IL 60601
(312) 551-9500
rpg@fg-law.com
Counsel for Respondent
Packet Intelligence LLC

No paper copies
PDFs will be served by
email

RECIPIENT

NO. OF COPIES

Paul J. Skiermont
Sadaf R. Abdullah
Steven W. Hartsell
Skiermont Derby LLP
1601 Elm St., Suite 4400
Dallas, TX 75201
(214) 978-6600
pskiermont@skiermontderby.com
sabdullah@skiermontderby.com
shartsell@skiermontderby.com

No paper copies
PDFs will be served by
email

Counsel for Respondent
Packet Intelligence LLC
Mieke K. Malmberg
Skiermont Derby LLP
800 Wilshire Blvd., Suite 1450
Los Angeles, CA 90017
(213) 788-4500
mmalmberg@skiermontderby.com
Counsel for Respondent
Packet Intelligence LLC

No paper copies
PDFs will be served by
email

No. _____________

In The

Supreme Court of the United States
NETSCOUT SYSTEMS, INC., NETSCOUT SYSTEMS TEXAS, LLC,
fka TEKTRONIX TEXAS, LLC dba TEKTRONIX COMMUNICATIONS,

Petitioners,

v.
PACKET INTELLIGENCE LLC,

Respondent.
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Federal Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I certify that the PETITION FOR
A WRIT OF CERTIORARI AND SUPPLEMENTAL APPENDIX in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.l(b), being
prepared in Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 8,955 words, excluding the parts that are exempted by
Supreme Court Rule 33.l(d), as needed.
I declare under penalty of perjury that the foregoing is true and correct.

Dated: March 15, 2021

WILLIAM R. PETERSON
Counsel of Record
MORGAN, LEWIS &
BOCKIUS LLP
1000 Louisiana Street, Suite 4000
Houston, Texas 77002
(713) 890-5188
william.peterson@morganlewis.com
Counsel for Petitioners

